C@OCKLE

2311 Douglas Street .
Omaha, Nebraska 68102-1214 Legal B riefs

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

No. 19-735

WILLIAM TONG, in his Official Capacity as
Attorney General for the State of Connecticut,

Petitioner,
Vv.

TWEED-NEW HAVEN AIRPORT AUTHORITY,

CITY OF NEW HAVEN,
Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), | certify that the REPLY BRIEF IN SUPPORT
OF PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the

typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook

12 point for the text and 10 point for the footnotes, and this brief contains 2978 words, excluding

the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of February, 2020.

Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Kense. 0. Lew Qudewoh. bole

f GERERAL ROTARY-State of Hebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

 

Notary Public /

39533
